No.

IN THE SUPREME COURT
OF THE UNITED STATES
OCTOBER TERM, 2019

LUIS BELTRAN,
Petitioner,
‒ V. ‒
UNITED STATES OF AMERICA,
Respondent.
PROOF OF SERVICE
I, Daniel S. Nooter, do declare that on this date, August 31, 2020, as required by Supreme
Court Rule 29, I have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid.
The names and addresses of those served are as follows:
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001

Nadia I. Shihata, Esq. (AUSA)
U. S. Attorney's Office, EDNY
271 Cadman Plaza East
Brooklyn, New York 11201

Eric Franz, Esq.
Attorney for Besnik Llakatura
Law Offices of Eric Franz P.L.L.C.
747 3rd Avenue
New York, New York 10017

Redinel Dervishaj, pro se
Register No. 05723-748
McCreary USP
U.S. Penitentiary
P.O. Box 3000
Pine Knot, KY 42635

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 31, 2020.

/s/ Daniel S. Nooter
Daniel S. Nooter, Esq.

